STATUS OF THE FEDERAL BUREAU OF
INVESTIGATION’S IMPLEMENTATION
    OF THE SENTINEL PROJECT
        U.S. Department of Justice
      Office of the Inspector General

              Report 10-22
               March 2010
Introduction

      On March 16, 2006, the Federal Bureau of Investigation (FBI)
announced the award of a $305 million contract to Lockheed Martin
Services, Incorporated (Lockheed Martin), as part of a $425 million project
to develop the Sentinel information and investigative case management
system. In its original plan, the FBI expected to develop Sentinel in four
overlapping phases, each lasting 12 to 16 months. Each phase, when
deployed, was to provide a stand-alone set of capabilities upon which
subsequent phases would add further capabilities. The FBI originally
scheduled the fourth and final phase of Sentinel to be completed by
December 2009.

      On June 19, 2007, the FBI announced that it had fully deployed
Phase 1 of Sentinel. As a result of lessons learned during the development
of Phase 1, however, the FBI and Lockheed Martin replanned the remaining
phases of Sentinel before developing Phase 2. During this replanning, the
FBI and Lockheed Martin adopted an incremental development methodology
for the remaining portions of Sentinel that divided Phases 2 through 4 into
segments, which were further divided into increments. A major reason for
switching to this incremental development model was the FBI’s desire to
deliver new capabilities to users every 3 to 6 months.

      At the request of the FBI Director and congressional committees, the
Department of Justice Office of the Inspector General (OIG) has been
performing reviews and reporting on the progress of the FBI’s development
of Sentinel. This report is the sixth in the series of reviews that the OIG has
conducted to evaluate the FBI’s progress in developing and implementing
Sentinel.

       In our previous reports we expressed concerns about Sentinel’s overall
progress, aggressive schedule, increased costs, and inability to satisfy user
requirements. In our most recent report, issued in November 2009, we
identified areas associated with the development of Sentinel that warranted
continued monitoring, including the migration of case data into Sentinel, the
level of user involvement throughout the remainder of Sentinel’s
development, and the staffing of the Sentinel Project Management Office
(PMO). 1



       1
         U.S. Department of Justice Office of the Inspector General, Sentinel Audit V:
Status of the Federal Bureau of Investigation’s Case Management System, Audit Report
10-03 (November 2009).



                                            1
      During our current review, we have found significant issues that we
believe could affect the successful implementation of Sentinel. Because of
the significance of these issues, and the recent actions taken by the FBI
regarding Sentinel, we are issuing this technical assistance report to report
on these important issues in a timely manner and to recommend that the
FBI address these concerns expeditiously. 2 Prior to issuing this report, we
provided a draft to the FBI and Lockheed Martin for their review. Their
comments were considered in drafting this final report.

OIG Results in Brief

      We have serious concerns about the progress of the FBI’s Sentinel
project. As we have previously reported, the FBI has had difficulty
establishing and maintaining a strict cost and schedule for the Sentinel
project. The FBI originally estimated the project would cost $425 million
and be completed by December 2009. However, we reported in our
November 2009 audit report that Sentinel’s overall project completion date
had been extended to September 2010, 9 months later than originally
planned, and the total projected cost of the project was $451 million,
$26 million more than originally planned.

      Our concerns about the FBI’s ability to complete Sentinel in a timely
and cost-effective manner have escalated. As of March 2010, the FBI does
not have official cost or schedule estimates for completing Sentinel. The
remaining budget, schedule, and work to be performed on Sentinel are
currently being renegotiated between the FBI and Lockheed Martin. While
the FBI does not yet have official estimates, FBI officials have acknowledged
that the project will cost more than its latest revised estimate of
$451 million and will likely not be completed until 2011.

       Our November 2009 audit also reported that the FBI had accepted
delivery of Sentinel’s Phase 2 Segment 3, that the FBI and Lockheed Martin
had encountered considerable challenges in deploying these deliverables,
and that the FBI had deferred deployment of some of these deliverables to
later stages of the Sentinel project. On March 3, 2010, because of
significant issues regarding Phase 2 Segment 4’s usability, performance, and
quality delivered by Lockheed Martin, the FBI issued a partial stop-work
order to Lockheed Martin for portions of Phase 3 and all of Phase 4. In




      2
       This technical assistance report is not intended to comply with generally accepted
government auditing standards, as a full-scale audit report would.



                                            2
addition, the stop-work order returned Phase 2 Segment 4 of the project
from operations and maintenance activities to the development phase. 3

      We are also concerned that the FBI conditionally accepted delivery of
Phase 2 Segment 4 in December 2009, knowing that Sentinel had serious
performance and usability issues and after receiving overwhelmingly
negative user feedback during testing. Moreover, the FBI spent an
additional $780,000 of discretionary operations and maintenance funds to
correct Phase 2 defects after it accepted the product as delivered. Now the
FBI does not have official cost or schedule estimates for completing Sentinel.

      We found that the Phase 2 Segment 4 cost increase and schedule
delay occurred for several reasons. First, there were significant problems
with the usability of electronic forms that were developed for Sentinel.
Second, there were 26 critical issues related to the functionality of Sentinel
that required resolution before deployment. Third, Sentinel’s utilization and
compatibility with network security features in the FBI’s Public Key
Infrastructure (PKI) did not meet the FBI’s expectations. 4 Fourth, an
independent review conducted at the FBI’s request concluded that Lockheed
Martin had deviated from accepted systems engineering processes in
developing the software code for Sentinel.

       In addition to the cost and schedule changes, the FBI is having
difficulty in ensuring that the Sentinel program is meeting established
requirements, particularly in meeting user needs.

      Because of these ongoing issues, the OIG has serious concerns about
the progress of Sentinel.

March 2010 Partial Stop-Work Order

      On March 3, 2010, the FBI issued a partial stop-work order for
portions of Phase 3 and all of Phase 4 of Sentinel. The stop-work order
directed Lockheed Martin to cease work on the development of all but three
areas of Phase 3: data migration, system interfaces, and hardware. The


       3
         The purpose of the development phase is to produce and test an IT system. The
purpose of operations and maintenance is (1) to maintain and support functionality, and
(2) to manage and implement necessary modifications to functionality after the conclusion
of the development phase. An IT system normally moves sequentially from development to
operations and maintenance, where it remains until obsolescence.
       4
          The Public Key Infrastructure (PKI) uses smartcards and encryption to enhance
network security. Sentinel’s integration with PKI will enhance its security and also allow
users to digitally sign documents.


                                              3
FBI’s Deputy Chief Information Officer told us that work continues on these
three areas of Phase 3 because they are lengthy efforts that involve multiple
phases of Sentinel and because the FBI believes Lockheed Martin is making
significant progress in each area.

      The FBI stated that the purpose of the partial stop-work order is to
focus Lockheed Martin’s efforts on delivering Phase 2 Segment 4 in a form
that the FBI finds acceptable. The FBI had conditionally accepted Phase 2
Segment 4 on December 2, 2009, which provided three electronic forms and
the associated electronic workflows, the capability to transfer all of the
administrative case files from ACS to Sentinel, and an on-line user help tool.
However, the FBI never deployed the phase to FBI users because of FBI
concerns with the system’s performance, usability, and software code
quality. The March 3, 2010 stop-work order also returned Phase 2 Segment
4 from operations and maintenance activities, which it entered when the FBI
conditionally accepted the segment, back into the development phase.

     The following sections of this report describe the status of Phases 2
and 3 before the FBI issued the partial stop-work order. As of
March 15, 2010, the FBI and Lockheed Martin had not agreed to a new cost
estimate and schedule for the completion of Sentinel.




                                      4
                                         Sentinel Schedule and Cost Adjustments
                               Mar ‘06            Jun ‘07      Dec ‘07     Jun ‘08     Dec ‘08      Jun ‘09        Dec ‘09 Jun ‘10       Dec ‘10   Jun ‘11   Dec ‘11
  Original Development                                                                                                                                                 Phase 1
 Schedule – March 2006
   Total Cost = $425 million                                                                                                                                           Phase 2
                          Mar-06                   Apr-07
                                         Feb-07                              May-08                                                                                    Phase 3

                                                                  Apr-08                         Feb-09                                                                Phase 4
                                                                                      Jan-09                           Dec-09

 Revised Development Schedule –
          October 2007
   Total Cost = $451 million
                         Mar-06                       Jun-07
                                                     Oct-07                                                  Jul-09
                                                                                           Apr-09                      Dec-09
                                                                                                          Oct-09                    Jun-10
  Latest Revised Development
  Schedule - November 2009
   Total Cost = $451 million
                         Mar-06                       Jun-07
                                                     Oct-07                                                           Nov-09
                                                                                                    Aug-09                              Aug-10
                                                                                                                      Apr-10             Sep-10
 Stop Work Order - March 2010
   Total Cost = ?
                         Mar-06                       Jun-07
                                                     Oct-07                                                                                            ?
                                                                                                    Aug-09                                                   ?
                                                                                                                                ?                                ?



            Source: OIG Analysis of Sentinel Project Documentation

Phase 2 Status

       Sentinel’s Phase 2, which is divided into four segments, was intended
to deliver electronic forms, implement more efficient work processes, and
migrate administrative case data currently in the FBI’s Automated Case
Support system (ACS) to Sentinel. 5 As we described in greater detail in our
November 2009 report, the FBI accepted Segment 3 of Phase 2 in
April 2009. This segment was planned to deliver eight forms to FBI users.
However, because of overwhelming negative user feedback received during
testing, including concerns about the usability of the forms that Lockheed
Martin delivered, the FBI did not deploy the forms. As a result of these
issues, the FBI redesigned the forms and replanned Segment 4 of Phase 2, a
decision that increased the cost of Phase 2 by $2.9 million.


            5
          Electronic forms are the Sentinel screens that agents, analysts, and staff will use
to input case information. This information will then be loaded into and maintained by
Sentinel.



                                                                                                 5
Segment 4 Delivery and Conditional Acceptance

      In November 2009, Lockheed Martin delivered the last segment of
Phase 2 – Segment 4, which included the migration of administrative case
data from ACS to Sentinel, the development of several electronic forms, a
search capability within Sentinel, and interfaces to two FBI systems external
to Sentinel. Despite serious performance and usability issues with
Segment 4 deliverables, the FBI conditionally accepted Sentinel’s Segment 4
from Lockheed Martin on December 2, 2009. At that time, however, the FBI
directed Lockheed Martin to correct 26 critical performance and usability
issues before the FBI would initiate the pilot deployment of Segment 4. To
gather additional performance data and user feedback, the FBI plans to
conduct a test deployment at two FBI field offices before it deploys
Segment 4 to the entire FBI.

      FBI officials told us that they conditionally accepted Segment 4
because they believed it met most of the FBI requirements. Additionally, the
FBI’s conditional acceptance of Segment 4 prohibited Lockheed Martin from
incurring any additional Segment 4 development costs without specific
written permission from the FBI’s Contracting Officer. Consequently,
Phase 2 moved into the operations and maintenance phase.

      During FBI user testing of Segment 4 deliverables in November 2009,
the FBI identified several issues with Sentinel’s performance. For example,
one tester reported that it had taken over 4 minutes to attach a picture file
to a Sentinel form and there was no way to stop that process once it had
begun. Additionally, a Sentinel PMO official stated that users experienced
waiting times of over 30 seconds each for Sentinel to render a blank form for
completion, and for Sentinel to save a completed form. FBI employee
testers stated that if Sentinel were released at that time, it would decrease
user productivity, have a detrimental impact on investigations, and lose
credibility as a valuable case management tool. Ninety-one percent of the
testers “did not succeed” when they tried to create one or more Electronic
Communications, one of the documents most frequently used in the FBI to
convey information between employees. Moreover, 82 percent of the testers
stated that the Sentinel capabilities they tested would make the completion
of the related tasks “much harder” than current FBI practices.

      As a result of the user testing feedback and other concerns, Sentinel
PMO officials decided to delay deployment of Segment 4 because they
determined that the segment’s deliverables did not function well enough to
deploy to all Sentinel users. Additionally, pilot testing of the Segment 4
deliverables, which had been planned for November 16, 2009, was
postponed because of the extensive negative tester feedback. Full


                                      6
deployment of the Segment capabilities, originally scheduled for
December 16, 2009, was also delayed. The pilot testing for Segment 4 has
subsequently been delayed several times and the FBI does not have a
current schedule for piloting the Segment 4 deliverables.

Segment 4 Budget and Schedule

       At the time the FBI conditionally accepted Phase 2 Segment 4, its
development budget, which had increased several times since the phase
began, was $144.1 million. Lockheed Martin incurred $144.7 million in
Phase 2 development costs, exceeding Phase 2’s development budget by
over $550,000. Phase 2’s schedule was also extended several times. In
total, Lockheed Martin took 35 days longer than allocated for Phase 2 in
Sentinel’s latest revised schedule to deliver Phase 2 Segment 4. 6




      6
        In the 2 months following the FBI’s conditional acceptance of Phase 2 Segment 4
in December 2009, the FBI spent approximately $780,000 from the Phase 2 operations and
maintenance budget for work Lockheed Martin performed in an effort to correct Sentinel’s
performance and usability issues. This type of work is typically charged to a project’s
development budget.


                                           7
      The following table shows the delays in the four activities necessary for
the FBI and Lockheed Martin to complete Phase 2 Segment 4.

                                                      SEGMENT 4 DELAYS

                                           November           December           January          February             March             April

                   10/6/09                    11/4/09
                  Scheduled                    Actual
                                29-day
                                Delay
   External
    User
   Testing
                                            11/1/09




                              10/16/2009                   11/20/2009
                              Scheduled     35-day           Actual
                                            Delay
  Segment 4
  Acceptance
    Review
                                            11/1/09




                                                      Start Date: 11/16/2009                                           Start Date: 3/3/2010
                                                           Scheduled                        107-day                        Planned Pilot
                                                                                             Delay
     Pilot
  Deployment

                                                              12/1/2009          1/1/2010             2/1/2010     3/1/2010




                                                                        12/16/2009                                                                4/19/2010
                                                                        Scheduled
                                                                                                             124-day                               Planned
                                                                                                              Delay
  Segment 4
     Full
  Deployment
                                                                                 1/1/2010             2/1/2010     3/1/2010            4/1/2010



   Source: OIG Analysis of Sentinel Project Documentation

       We identified four major factors that contributed to Phase 2’s schedule
delays and cost increases: (1) problems encountered with the development
of Sentinel’s electronic forms, (2) performance and usability issues,
(3) complications with the integration of Sentinel with the network security
features in the FBI’s PKI program, and (4) inefficiencies in the software
code. 7

     First, during Segment 4, Lockheed Martin and the Sentinel PMO
encountered problems developing electronic forms for Sentinel. The
November 2009 user testing produced overwhelmingly negative feedback on

        7
        The inefficiencies described in the report refer to patterns in the software code that
may result in decreased performance.


                                                                        8
the forms that Lockheed Martin delivered. As a result, the usability of the
forms was a significant factor in the FBI’s decision to delay its pilot program
and subsequent deployment of Segment 4.

       Second, as part of its conditional acceptance of Segment 4, the FBI
identified 26 critical performance and usability issues, which were
documented in Defect Reports, that the FBI required Lockheed Martin to fix
before it would proceed with the pilot. 8 Many of these issues addressed
concerns about the need to display critical data, security, and the FBI’s work
processes. Also, a Sentinel PMO official told us that in addition to the
26 critical issues, the volume of outstanding Segment 4 Defect Reports also
prompted the FBI to delay piloting and deploying Segment 4 to give
Lockheed Martin time to remedy the identified functionality issues.

       Third, issues arose concerning how Sentinel integrated the FBI’s PKI, a
program on which Sentinel relies to ensure the integrity of Sentinel’s data.
Specifically, the integration mistakenly allowed users to create and use a
fake identity to electronically sign documents. 9 This meant that Sentinel
could not reliably track who had created or modified documents stored
within Sentinel. In addition, Lockheed Martin and the FBI disagreed on how
to interpret one of Sentinel’s requirements concerning digital signatures.
The Sentinel PMO interpreted it as a requirement that the digital signature
must require confirmation that a user is authorized to electronically sign-off
on the document on which the user worked. Lockheed Martin’s
interpretation of the same requirement was that it must provide assurance
that the user who electronically signed the document had an active account.
In our judgment, it is imperative that the FBI and Lockheed Martin agree on
what must be accomplished to satisfy each of Sentinel’s requirements.
Without such an agreement, it is likely that Sentinel’s cost and schedule will
continue to increase as differences in interpretations result in deliverables
that do not meet the FBI’s expectations. In responding to this report, FBI
and Lockheed Martin officials said they had resolved both the disagreement
about the PKI requirements and the ability to create a fake identity.

      Fourth, to resolve concerns the FBI had about the performance of
Sentinel, the FBI contracted with an independent team to review Sentinel’s

       8
         Defect Reports document issues that were identified during testing and require
additional work to be resolved.
       9
           A digital certificate contains information about the user who was issued the
certificate, as well as information about the certifying authority who issued it. When a digital
certificate is used to sign documents, this information is stored with the signed item in a
secure and verifiable form so that it can be displayed to authorized users in the future.



                                               9
software code and related documentation. 10 The team concluded that
Lockheed Martin had significantly deviated from accepted systems
engineering practices, did not follow its own published documentation
requirements, and had not adequately followed testing procedures.
According to the team’s report, these deficiencies resulted in over 10,000
inefficiencies in Sentinel’s software code. The team found that while none of
the 10,000 inefficiencies dramatically affected Sentinel’s performance,
collectively they could diminish Sentinel’s performance. In its response to
the report, the FBI stated that it is currently taking steps to determine if
these inefficiencies affect Sentinel’s performance and the resources required
to repair the code as necessary.

Phase 2 Acceptance Criteria

      While the FBI has established written criteria for accepting the delivery
of Sentinel segments, similar criteria does not exist for acceptance of
Sentinel phases or Sentinel as a whole. As each segment is completed,
Lockheed Martin conducts testing that is intended to ensure the newly
delivered segment properly interacts with the previous versions of Sentinel
upon which the new segment was built.

      We believe that testing at the segment level is not sufficient to ensure
that a phase addresses the FBI’s needs and requirements and that the FBI
should develop criteria for accepting delivery of each phase, and Sentinel as
a whole. Such criteria would help the FBI to ensure that all of the
functionality delivered throughout the development of Sentinel work
together to provide the desired system-wide functionality.

       Moreover, in a December 2009 report, the team hired by the FBI to
review Sentinel’s software code and related documentation concluded that
Lockheed Martin had either not conducted the required testing or conducted
only limited testing for Phase 2 of the project. Officials from both the FBI
and Lockheed Martin disagreed with this conclusion and said that Segment 4
met all of the testing requirements for the FBI’s conditional acceptance.

Phase 3 Status

      The planning for Phase 3 of Sentinel began in January 2009, and
development was scheduled to be completed on June 23, 2010. However,
as a result of the difficulties encountered with Phase 2, Lockheed Martin

      10
           The independent review team was from Mitre, a Federally Funded Research and
Development Center. Federally Funded Research and Development Centers assist the
United States government with scientific research and analysis, development and
acquisition, and systems engineering and integration.


                                          10
reallocated staff intended for Phase 3 development to continue working on
the development of Phase 2.

       As of January 2010, Lockheed Martin estimated the development of
Phase 3 was at least 12 weeks behind schedule and that it was not possible
to complete development of Phase 3 by June 23, 2010, as scheduled in the
latest project plan for Sentinel. As of January 2010, the FBI estimated that
Phase 3 development would cost about $58 million, $13 million more than
the latest Sentinel plan budgeted for this phase.

      The deviation in the Phase 3 schedule was so significant that the FBI
had to report to the Office of Management and Budget a complete analysis
of the reasons for the schedule slippage, a list of actions planned to correct
the problem, and an estimated completion date and cost. In January 2010,
the FBI directed Lockheed Martin to develop the new budget and schedule
for Phases 3 and 4, which was due by the end of January 2010. However,
by the time the FBI issued the partial stop-work order on March 3, 2010,
Lockheed Martin and the FBI still had not agreed on a revised budget and
schedule for Phases 3 and 4.

      FBI officials told us that they expect the completion of Sentinel to be
delayed at least 11 weeks and that the overall cost will exceed the
$451 million currently budgeted for the project. FBI officials also stated that
the revised budget and schedule will include a plan to reduce the overlap of
Phases 3 and 4 because of the difficulties Lockheed Martin encountered with
allocating staff to multiple phases under the previous plan.

      However, the FBI has not provided a specific estimate of what it
projects the total cost of Sentinel, or when it expects Sentinel to be
completed. FBI officials have stated that in order to meet any increased
funding requirements, the FBI plans to request congressional approval to
redistribute funds from other FBI information technology programs to
Sentinel.

Additional Areas of Major Concern

      We identified the following additional major issues that, in our
judgment, will continue to affect Sentinel’s development in the future.
We believe that these issues, if not closely monitored and effectively
addressed by the FBI, will add to Sentinel’s cost and schedule, affect
the functionality of the system, and result in a diminished level of user
acceptance of and satisfaction in the system.




                                      11
Data Migration

       A significant area of risk for the Sentinel project continues to be the
successful migration of data from the FBI’s current ACS system to Sentinel.
According to FBI officials, Lockheed Martin successfully migrated
administrative case data from ACS to Sentinel during Phase 2. However, it
took 4 days to migrate administrative case data, which constituted only
about 2 percent of the data in ACS. According to Sentinel independent
verification and validation staff, migrating the investigative case file data
using the same method could take up to 200 days. The FBI and Lockheed
Martin agreed that because the method used to migrate the administrative
case data would take too long, a new migration strategy is needed to
transfer the remaining investigative case files to Sentinel.

      The FBI has yet to document a strategic data migration plan for
investigative case files that ensures a reliable estimate of the time required
to migrate the data and, just as important, that guarantees the data in
Sentinel will be usable and inclusive of all of the links between the FBI’s
cases. We believe that without a documented strategic plan for data
migration, the Sentinel PMO cannot ensure that Lockheed Martin has
adequate resources or time allocated to successfully migrate the remaining
ACS data. While the FBI and Lockheed Martin have discussed various
approaches, they have not agreed upon a methodology. However, in
response to a draft of this report, both the FBI and Lockheed Martin said
they were confident they could migrate the remaining data in substantially
fewer than 200 days.

Defect Report Prioritization

       Despite written criteria for assessing the severity of defects, Sentinel
PMO officials told us that the FBI and Lockheed Martin do not always agree
on which Defect Reports are the highest priority. Lockheed Martin prioritizes
Defect Reports based on whether they affect Lockheed Martin’s ability to
satisfy a requirement, while the FBI focuses on whether a Defect Report
affects the users’ ability to do their job. In our judgment, the FBI and
Lockheed Martin need to agree on a set of criteria for the prioritization of
Defect Reports generated during testing, and the criteria should focus on the
functionality and usability of Sentinel capabilities. In response to our draft
report, the FBI said that this issue was recently resolved, and when the FBI
and Lockheed Martin personnel do not agree on the priority a defect should
receive, one of the Sentinel Deputy Program Managers will make the final
determination on its priority level.




                                      12
Program Reporting

       During the periods when Sentinel has experienced significant schedule
delays and cost increases, some of the FBI’s internal assessments of
Sentinel’s progress have either been late, infrequent, or non-existent. For
example, for the past year the Sentinel PMO has been an average of 30 days
late in completing Sentinel’s monthly earned value management reports,
which provide the FBI, Department of Justice, and the Office of Management
and Budget with an assessment of Sentinel’s progress toward meeting its
schedule and cost goals. As a result of delayed reports, the FBI’s ability to
perform real-time evaluations of the program’s development and apply risk
management tactics is hindered.

      We also found that the FBI has discontinued its monthly Program
Health Assessments, which provided an independent assessment of
Sentinel’s risks and whether the project’s schedule accurately reflects the
amount of work necessary to successfully complete the project. In
responding to our draft report, FBI officials said that the Program Health
Assessments had not been discontinued, but that assessments of all FBI IT
systems are now conducted quarterly rather than monthly. We believe the
FBI should reinstitute monthly health assessments of Sentinel. Additionally,
as of March 2010 the Department of Justice’s Investment Review Board has
not received an update on Sentinel’s status in 6 months. In the past, the
board had requested and received quarterly updates on Sentinel’s status.

Sentinel PMO Staffing

      As of October 2009, the Sentinel PMO had 76 full time employees, who
were charged with ensuring that Sentinel addresses FBI users’ needs and
Lockheed Martin meets its contractual obligations. Due to the scope and
importance of the project, Sentinel requires a highly-skilled and experienced
Sentinel PMO staff. From December 2008 through October 2009, however,
the Sentinel PMO experienced a 26 percent turnover rate. In light of the
FBI’s aggressive development and deployment schedule for Sentinel, we are
concerned that a continuation of high staff turnover will negatively affect the
Sentinel PMO’s ability to properly oversee the project. FBI officials said that
they believed that the Sentinel PMO’s turnover rate was normal and that
some of the turnover had allowed the Sentinel PMO to better address its
changing needs.




                                      13
Sentinel User Help

      Sentinel will represent a significant shift in the way the FBI documents
investigations and case analysis by providing an electronic database for
cases rather than a paper-based system. Although Sentinel will significantly
change the way FBI personnel perform their jobs, the FBI does not plan to
establish a dedicated helpdesk to assist Sentinel users with operational
issues, at least during the initial implementation of the program. Instead,
the FBI plans to develop an online help tool to use as its primary
troubleshooting and training resource for Sentinel users. We do not believe
that this online tool will provide adequate assistance to the thousands of first
time Sentinel users. In commenting on our draft report, the FBI said that
online assistance will include a variety of formats and that extra staff will be
available when significant changes are deployed to FBI users.

Conclusion

       As a result of our ongoing review of the Sentinel project, we have
significant concerns with the rate and cost at which Sentinel’s development
is progressing. The FBI will require significant additional time and funding to
address these issues.

       In previous reports we have expressed concern that Sentinel’s original
schedule was very optimistic, and Phase 2 of Sentinel is now nearly 2 years
behind the FBI’s original schedule. Recently, because of significant issues
regarding Phase 2’s usability and performance, the FBI issued a partial stop-
work order to Lockheed Martin for portions of Phase 3 and all of Phase 4. In
addition, it has been over 2 years since Sentinel users have received a
significant upgrade in functionality.

      After more than 3 years and $334 million expended on the
development and maintenance of Sentinel, the cost to Sentinel is rising, the
completion of Sentinel has been repeatedly delayed, and the FBI does not
have a current schedule or cost estimate for completing the project.

       Given the importance of Sentinel to the future of FBI operations,
particularly in moving FBI agents and analysts from a paper-based system to
a modern computer-based system, the FBI must ensure that its revisions to
Sentinel’s budget, schedule, and requirements are realistic, achievable, and
satisfactory to its users. The FBI must also ensure that users’ concerns and
perspectives are integrated into all phases of the remaining development of
Sentinel.




                                      14
      The FBI is taking some steps to improve Sentinel’s chances for
success, including independent assessments, performed by other
contractors, of Lockheed Martin’s deliverables. However, we are concerned
that the FBI conditionally accepted Phase 2 of the project despite its
knowledge of significant problems with the product Lockheed Martin
delivered. We believe the FBI must determine where its processes failed
when it conditionally accepted Phase 2. We also have concerns with the
FBI’s ability to complete the challenges that Sentinel’s future will likely bring,
such as data migration and user acceptance. As part of our oversight for
this project, we will continue to monitor and periodically report on the
funding of Sentinel.




                                       15
